Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





     LONG-TERM CARE

HOSPITALS-WITHIN-HOSPITALS





                     Inspector General

                       July 2004
                     OEI-01-02-00630
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
   A B S T R A C T                    





                         Medicare regulations define long-term care hospitals as having an
                         average length of stay greater than 25 days. Medicare excludes these
                         hospitals from the acute care hospital prospective payment system.
                         Long-term care hospitals-within-hospitals (HwHs) are physically
                         located inside acute care hospitals (host hospitals). The co-location of
                         an HwH and its host hospital creates potentially inappropriate
                         financial incentives. As a result, the Centers for Medicare & Medicaid
                         Services (CMS) imposes payment limits on HwHs that readmit more
                         than 5 percent of patients discharged to their host hospitals over the
                         course of the HwH’s fiscal year. CMS also requires that HwHs be
                         organizationally and financially independent from their hosts.

                         We found that 19 of 87 HwHs exceeded the annual 5 percent threshold
                         for readmissions from their host hospitals at least once during their
                         fiscal years ending in September 2000 through December 2002.
                         Currently, CMS lacks a system to detect readmissions over the 5
                         percent threshold. Many of these readmissions involved high cost
                         diagnosis-related groups (DRGs). As Medicare’s prospective payment
                         system for long-term care hospitals is fully implemented, paying HwHs
                         that are over the 5 percent readmission level could result in increased
                         costs to the Medicare program.

                         In addition, CMS has no ongoing mechanism to determine whether
                         HwHs are financially and organizationally separate from their host
                         hospitals.

                         We recommend that (1) CMS develop a system to monitor HwHs’
                         compliance with the 5 percent readmission rule, and (2) CMS require
                         HwHs to demonstrate their organizational and financial independence
                         on a continuing basis.

                         In its response to our draft report, CMS generally supports our findings
                         and the thrust of our recommendations. The agency indicated that it is
                         moving forward with programs to address the concerns that we
                         identified.




       OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   i
   E X E C U T I V E                                   S U M M A R Y                               



                      OBJECTIVES
                      To assess the rate at which long-term care hospitals-within-hospitals
                      readmit patients discharged to their host hospitals, and whether that
                      rate exceeds the 5 percent threshold for full Medicare reimbursement.

                      To document the nature and extent of the Centers for Medicare &
                      Medicaid Services’s (CMS’s) controls to determine if hospitals-within-
                      hospitals meet the criteria for exclusion from the Medicare acute care
                      hospital prospective payment system (PPS).


                      BACKGROUND
                      Medicare regulations require that long-term care hospitals have an
                      average length of stay greater than 25 days. Medicare excludes these
                      hospitals from the acute care hospital PPS. Long-term care hospitals-
                      within-hospitals (HwHs) are physically located inside acute care
                      hospitals (host hospitals). Between 1995 and 2002, the number of
                      HwHs quadrupled from 32 to 132, while Medicare payments to them
                      rose from $135 million to $817 million. Medicare beneficiaries treated
                      in HwHs increased 7-fold, to over 34,000.

                      The co-location of an HwH and its host raises concerns about potentially
                      inappropriate financial incentives. For example, the proximity of an
                      HwH and its host creates an incentive for an HwH to discharge patients
                      to the host hospital and then readmit the same patient for additional
                      care. The HwH would receive two separate Medicare payments—one
                      for each admission—and the host hospital would also receive a payment.
                      The co-location of the HwH and its host also raises concerns about the
                      degree to which transactions between them are conducted on an arms-
                      length basis.

                      As a result of these concerns, CMS set out specific regulatory
                      requirements for HwHs. An HwH that readmits more than 5 percent of
                      its patients from its host over the course of a fiscal year faces limits on
                      the Medicare payments it receives. Under the cost-based payment
                      system, in effect prior to October 2002, HwHs over the 5 percent
                      readmission threshold were paid on the basis of their average cost per
                      discharge, up to a ceiling amount. Under the new long-term care
                      hospital PPS, if an HwH’s readmission rate exceeds 5 percent, the HwH
                      would receive only one DRG payment per patient for all admissions
                      from the host hospital regardless of the number of readmissions from
                      the host hospital. This payment limitation applies to the fiscal year in

    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S       ii
E X E C U T I V E                         S U            M M A R Y


                   which the HwH exceeded the 5 percent threshold. CMS also requires
                   that an HwH meet specific organizational and financial criteria in order
                   to be excluded from the acute care hospital PPS.

                   We determined readmission rates through analysis of Medicare’s 100
                   Percent Inpatient Hospital File. We reviewed files on 80 HwHs at 2
                   CMS regional offices and the fiscal intermediary that serves the
                   majority of HwHs. We also interviewed staff from CMS central office
                   and four regional offices, three fiscal intermediaries, and three national
                   long-term care hospital chains.

                   Our inspection focused on HwHs established from October 1995 to
                   January 2002. Our analysis of readmission rates examined admissions
                   for fiscal years beginning in October 1999 through January 2002, when
                   HwHs were paid under a cost-based system. During this period, HwHs
                   were supposed to face financial penalties in their cost report settlement
                   if they exceeded the 5 percent readmission threshold. Because HwHs
                   faced this threshold under the cost-based system, it is useful to examine
                   how HwHs responded to the threshold as a potential predictor of
                   behavior under the new PPS system.


                   FINDINGS
                   Nineteen of 87 HwHs exceeded the annual 5 percent threshold for
                   readmissions from their host hospitals at least once during their
                   fiscal years ending in September 2000 through December 2002.
                   Because HwH fiscal years commence at the beginning of different
                   months, the available data allow us to analyze complete 2000 and 2001
                   fiscal years, and a subset of 2002 fiscal year data. This subset of fiscal
                   year 2002 data comprises those HwHs with fiscal years ending between
                   September and December 2002. Nine HwHs exceeded the 5 percent
                   threshold in multiple fiscal years, including two that exceeded it in all 3
                   years of our analysis.
                   CMS lacks a system to detect readmissions over the 5 percent
                   threshold. CMS has not made monitoring readmissions a priority.
                   Cost reports do not contain data necessary to monitor readmissions.
                   Many HwHs and host hospitals have different fiscal intermediaries and
                   different fiscal years, so intermediaries do not have access to data
                   needed to verify readmission rates. The cost reports for HwHs have not
                   yet been settled for fiscal years since the 5 percent readmission
                   threshold was imposed in 1999. As a result, at this point in time we



 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   iii
E X E C U T I V E                         S U            M M A R Y


                   cannot determine whether the appropriate adjustments in payments to
                   HwHs have been or will be made.
                   Many readmissions in the hospitals-within-hospitals over the
                   5 percent threshold involved high cost diagnosis-related groups.
                   As Medicare’s PPS for long-term care hospitals is fully implemented,
                   paying HwHs that are over the 5 percent readmission level could result
                   in increased costs to the Medicare program. In our analysis of fiscal
                   years 2000 and 2001 data, and a subset of fiscal year 2002 data,
                   three high cost diagnosis-related groups (DRGs) dominated in HwHs
                   over the 5 percent readmission threshold. In addition to having a
                   higher base payment under the long-term care hospital PPS than under
                   the acute care PPS, all three of these DRGs are multiplied by relative
                   weights greater than 1.0, with two of the DRGs having weights greater
                   than 2.0. The high cost of these DRGs is exacerbated when a patient is
                   readmitted, because two DRG payments are made to the HwH.
                   CMS provides limited oversight of hospital-within-hospital
                   compliance with the exclusion criteria. CMS requires HwHs to
                   demonstrate annual compliance with the 25-day average-length-of-stay
                   criterion in order to maintain their status as long-term care hospitals.
                   However, CMS has no ongoing mechanism to determine whether HwHs
                   are meeting the organizational or financial independence criteria.
                   Further, HwHs self-report data, which CMS does not independently
                   verify.


                   RECOMMENDATIONS
                   The potential for improper Medicare payments to HwHs due to their co-
                   location with host hospitals makes strong oversight critical. We found
                   that CMS lacks such oversight of HwHs, creating a vulnerability for the
                   Medicare program. Therefore, we recommend that CMS:
                   Develop a system to monitor hospital-within-hospital compliance
                   with the 5 percent readmission threshold.
                           • 	 CMS could require HwHs to submit annual discharge,
                               admissions, and readmissions data to their fiscal intermediaries.

                           • 	 CMS could use that data to monitor HwH’s readmission rates.

                           • 	 CMS could develop a system to facilitate data sharing between
                               fiscal intermediaries.




 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   iv
E X E C U T I V E                         S U            M M A R Y


                   Require hospitals-within-hospitals to demonstrate ongoing
                   compliance with the organizational and financial independence
                   criteria.
                           • 	 CMS could specify what supporting documentation HwHs must
                               submit to demonstrate ongoing organizational independence.

                           • 	 CMS could require HwHs to submit financial independence data
                               annually to their fiscal intermediaries.

                           • 	 CMS could conduct a focused review of a sample of HwHs to
                               assess their compliance with the exclusion criteria.


                   AGENCY COMMENTS
                   We received comments on our draft report from the Centers for
                   Medicare and Medicaid Services (CMS). CMS generally supports our
                   findings and the general thrust of our recommendations. The agency
                   indicates that it is moving forward with programs to address the
                   concerns that we identified.




 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   v
   T A B L E           O F               C O N T E N T S                                             




           A B S T R A C T .....................................................................i 



           E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



           I N T R O D U C T I O N ............................................................. 1 




           F I N D I N G S ..................................................................... 8 

                         Hospitals-within-hospitals exceeding readmission threshold . . . . . . . 8 


                         Lack of system to detect readmissions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                         Readmissions in high-cost DRGs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                         Limited oversight of exclusion criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




           R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                         Develop system to monitor compliance with 5 percent threshold . . 15 


                         Require compliance with the exclusion criteria . . . . . . . . . . . . . . . . . . . . . . 16 




           A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




           A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                         A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                         B: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                         C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 




           A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




           E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   I N T R O D U C T I O N                                                     



                      OBJECTIVES
                      To assess the rate at which long-term care hospitals-within-hospitals
                      readmit patients discharged to their host hospitals, and whether that
                      rate exceeds the 5 percent threshold for full Medicare reimbursement.

                      To document the nature and extent of the Centers for Medicare &
                      Medicaid Services’s controls to determine if hospitals-within-hospitals
                      meet the criteria for exclusion from the Medicare acute care hospital
                      prospective payment system (PPS).


                      BACKGROUND
                      Long-Term Care Hospitals
                      Medicare regulations require that long-term care hospitals have an
                      average length of stay greater than 25 days.1 These hospitals focus on
                      patients with medically complex conditions or multiple conditions
                      (comorbidities). Types of patients treated in long-term care hospitals
                      include those who are ventilator dependent, need multiple rehabilitative
                      therapies, suffer from organ failure, or have infectious diseases.

                      A long-term care hospital must first operate as a Medicare-certified
                      acute care hospital for at least 6 months. After 6 months, the hospital
                      may apply to be reclassified as a long-term care hospital. The Centers
                      for Medicare & Medicaid Services (CMS) determines the status of a
                      long-term care hospital at the beginning of each subsequent annual cost
                      reporting period.2
                      Hospitals-within-Hospitals: Hospitals-within-hospitals (HwHs) are
                      physically located inside an acute care hospital, referred to as the host
                      hospital. The vast majority of HwHs are long-term care hospitals; in
                      this report, our use of the term HwH refers only to long-term care
                      HwHs. Typically, an HwH leases unused space from the host hospital.
                      Even though an HwH is located in the same building as its host, it is a
                      separate hospital, organizationally independent from its host, with its
                      own Medicare provider number, not a unit of the host hospital.
                      Regulatory requirements for HwHs are found at 42 C.F.R. § 412.22.
                      Reimbursement Policies: Long-term care hospitals generally treat
                      medically complex patients with long stays. As a result, CMS excludes
                      them from the acute care hospital PPS. Prior to October 1, 2002, CMS
                      paid all long-term care hospitals on a cost basis, up to a ceiling based on
                      costs per discharge. CMS is currently phasing in a long-term care

    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   1
I N T R O D 
U C T                        I O N


                        hospital PPS that uses diagnosis-related groups (DRGs). These DRGs
                        are identical to the acute care hospital DRGs. However, CMS applies a
                        larger base payment and generally higher relative weights to the long-
                        term care hospital DRGs, thus taking into account the specialized care
                        offered by long-term care hospitals.
                        Rapid growth: Over the past decade, long-term care hospitals have
                        grown more rapidly than any other post-acute setting. From 1995 to
                        2002, Medicare payments to long-term care hospitals and the number of
                        beneficiaries treated in that setting more than doubled (see Table 1).
                        The number of facilities increased by over 100, from 178 to 295.




                                                                                         Table 1
                                                   Growth of Long-term Care Hospitals (LTCHs)
                                                      and Hospitals-within-Hospitals (HwHs)
                                                                    1995-2002
                                            Medicare
                                                                                          Number of           Medicare Beneficiaries
                                            Payments
                                                                                           Facilities              Discharged
                                           ($ Millions)
                                          1995      2002                              1995            2002    1995         2002
                      All
                    LTCHs*                $836                $2,193                   178             295    42,339      98,678
                     HwHs                 $135                 $817                    32              132     4,621      34,592
                    (% of all
                                         (16%)                 (37%)                (18%)             (45%)   (11%)       (35%)
                    LTCHs)
                   * includes HwHs and freestanding LTCHs
                   Data sources: CMS’s HCFA Customer Information System (HCIS) and
                                       OIG analysis of HwHs




                        HwHs account for much of the growth in long-term care hospitals.
                        Between 1995 and 2002, the number of HwHs more than quadrupled,
                        from 32 to 132. In 1995, HwHs constituted 18 percent of all long-term
                        care hospitals; by 2002 they comprised 45 percent. Similarly, Medicare
                        payments to them rose from $135 million (16 percent of payments to all
                        long-term care hospitals) to $817 million (37 percent of all long-term
                        care hospital payments). Between 1995 and 2002, the number of
                        beneficiaries treated in HwHs increased 7-fold, from just under 5,000 to
                        over 34,000. Our interviews with industry observers, both among
                        providers and in Government, suggest that these trends will continue.

 OEI-01-02-00630        L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                                    2
I N T R O D        U C T              I O N


                    Concerns About Hospitals-within-Hospitals
                    Relationship with Host Hospital: Hospitals, including HwHs, accept
                    overall responsibility for a patient’s care and furnish all services
                    required. The hospital discharges a patient only after completing the
                    full course of treatment.

                    The co-location of an HwH and its host raises concerns about potentially
                    inappropriate financial incentives. For example, the proximity of an
                    HwH and its host creates an incentive for an HwH to discharge patients
                    to the host hospital and then readmit them for additional care. The
                    HwH would receive two separate Medicare payments—one for each
                    admission—and the host hospital would also receive a payment.

                    Furthermore, the payment system creates a financial incentive for the
                    host hospital to transfer patients to the HwH without having completed
                    a full course of treatment. In those cases, Medicare would make two
                    payments for the same patient: the host hospital would receive full
                    payment, even if it had not completed the full course of treatment; and
                    the HwH also would receive full payment for the care it provides.

                    Finally, the co-location of an HwH and its host raises concerns about the
                    degree to which they operate as separate facilities. These concerns
                    include whether management decisions, such as lease agreements and
                    purchase of services, are arms-length transactions based on fair market
                    value.
                    Aggressive marketing to acute care hospitals: Many HwHs are part of
                    chain organizations that aggressively market their services to potential
                    hosts. We reviewed web sites and marketing materials of several chain
                    organizations and found they stress the financial incentives described
                    above. These materials include the following claims:

                            • 	 A host hospital will have “increased cash flow by realizing lease
                                and purchased services revenue” from an HwH.

                            • 	 A host can gain as much as $1.8 million per year in extra
                                revenues though partnering with an HwH.

                            • 	 An HwH offers “solutions to problems that are faced daily,
                                including large outlier financial costs and financial losses from
                                Medicare PPS restrictions.”
                    CMS’s Hospital-within-Hospital Regulations
                    Because of the concerns described above, CMS issued regulations that
                    address the readmission of patients from the host hospital to the HwH,


 OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   3
I N T R O D        U C T              I O N


                    as well as the organizational and financial independence of the HwH
                    from the host hospital.
                    5 Percent Readmission Threshold: CMS addressed the vulnerability
                    presented by readmissions from the host hospital in a 1999 regulation.
                    This regulation allows–over the course of an HwH’s fiscal year–up to 5
                    percent of discharges from the HwH to its host to be readmitted to the
                    HwH without an intervening discharge to another setting. Under the
                    cost-based system in effect prior to October 2002, HwHs were paid on
                    the basis of their average cost per discharge, up to a ceiling amount.
                    CMS set the ceiling rate at $39,850 for HwH fiscal years beginning on
                    or after October 1, 1999; $41,745 for years beginning on or after October
                    1, 2000; and $44,009 for years beginning on or after October 1, 2001.
                    Payments to HwHs exceeding the 5 percent threshold were to be
                    decreased by excluding all readmissions from the host from the
                    calculation of the average cost per discharge regardless of the number of
                    readmissions from the host hospital. This payment limitation applies to
                    the fiscal year in which the HwH exceeds the 5 percent threshold.3
                    Effective for fiscal years beginning October 1, 2002, all long-term care
                    hospitals, including HwHs, are being paid under a new long-term care
                    PPS. The new PPS, which uses DRGs for payment, is being phased in
                    over a 5-year period. Under the new PPS, if the readmission rate
                    exceeds 5 percent over the course of an HwH’s fiscal year, the HwH
                    would receive only one DRG payment per patient for all admissions
                    from the host hospital regardless of the number of readmissions from
                    the host hospital. This payment limitation applies to the fiscal year in
                    which the HwH exceeds the 5 percent threshold.4
                    Exclusion Criteria: In a 1995 regulation, CMS required that HwHs
                    meet three criteria to be excluded from Medicare’s acute care hospital
                    PPS.

                    1. Average length of stay. HwHs must maintain an average length of
                    stay greater than 25 days. This is required of all long-term care
                    hospitals.

                    2. Organizational independence. The organizational independence
                    criterion is designed to ensure that an HwH operates as an independent
                    hospital, rather than just a unit of a host hospital.5 They must keep
                    the following administrative components separate from their hosts:

                            • 	 Governing body. The governing body must not be under the
                                control of the host or a third party with control of both hospitals.


 OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   4
I N T R O D        U C T              I O N


                            • 	 Chief medical officer. The chief medical officer must not be
                                employed by, or under contract with, the host or a third party
                                with control of both hospitals.

                            • 	 Medical staff. The medical staff must be directly accountable to
                                the HwH governing body. The medical staff adopts and enforces
                                bylaws governing medical staff activities. It is also involved in
                                the granting of privileges to individual practitioners.

                            • 	 Chief executive officer. The chief executive officer must not be
                                employed by, or under contract with, the host or a third party
                                with control of both hospitals.

                    Medicare regulations define control to exist “if an individual or an
                    organization has the power, directly or indirectly, to significantly
                    influence or direct the actions or policies of an organization or
                    institution.”6
                    3. Financial independence. The financial independence criterion is
                    intended to address incentives that could lead to unnecessary transfer
                    of patients from the host hospital or excessive purchase of services from
                    the host hospital.7 HwHs must meet one of three criteria:
                            • 	 They must perform basic hospital functions (quality assurance,
                                medical staffing, utilization review, infection control, and
                                nursing, medical record, pharmacy, radiology, and laboratory
                                services) independently from the host.

                            • 	 The costs of services purchased from the host hospital must be
                                no more than 15 percent of the HwH’s total inpatient operating
                                costs.

                            • 	 At least 75 percent of the HwH’s inpatient population must come
                                from a source other than the host hospital.

                    HwHs in operation prior to October 1995 do not need to meet the
                    organizational or financial independence criteria.8


                    SCOPE AND METHODOLOGY
                    This inspection focuses on HwHs established between October 1995 and
                    January 2002. HwHs established before October 1995, while still
                    subject to the 5 percent readmission threshold, are not required to meet
                    CMS’s organizational and financial independence criteria. As of
                    October 1995, 32 HwHs were in operation and are exempt from these
                    criteria. We do not include those 32 HwHs in our analysis.

 OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   5
I N T R O D        U C T              I O N


                    Because CMS data systems do not identify the universe of HwHs, we
                    first developed our own list. We obtained a listing of all long-term care
                    and acute care hospitals from CMS’s Online Survey Certification and
                    Reporting (OSCAR) system. We then matched addresses of long-term
                    care hospitals and acute care hospitals. If we could not make an exact
                    match, we used the Internet to identify which long-term care hospitals
                    were HwHs. We did this by visiting long-term care hospital web sites,
                    host hospital sites, industry-related sites, news sites, HwH chain
                    organization sites, and mapping sites to determine which long-term care
                    hospitals were HwHs. When we could not determine whether a long-
                    term care hospital was an HwH, we contacted the facility directly.

                    Our analysis identified 87 HwHs beginning operation between October
                    1995 and January 2002.
                    Compliance with 5 percent readmission threshold: This analysis
                    focused on assessing compliance with requirements that payments to
                    HwHs exceeding the 5 percent readmission threshold were to be
                    decreased by excluding all readmissions from the host from calculation
                    of the average cost per discharge. These requirements were in effect for
                    HwH fiscal years commencing on or after October 1, 1999.9
                    We analyzed readmission rates for each HwH for each of those fiscal
                    years, because the payment limitation was to have applied to the fiscal
                    year in which the HwH exceeded the 5 percent threshold. To determine
                    readmission rates, we analyzed the National Claims History 100
                    Percent Inpatient File for HwHs and their hosts for fiscal years
                    beginning on or after October 1, 1999. We selected that date because it
                    corresponded to the effective date of Medicare’s 5 percent threshold on
                    readmissions from the host to the HwH.

                    We used SAS®, a statistical analysis package, to determine an HwH’s
                    total discharges, discharges to its host, and readmissions from the host.
                    We then calculated the readmission rate for each HwH’s fiscal year by
                    dividing readmissions by total discharges.

                    Our analysis included a total of 87 HwHs—66 with a fiscal year ending
                    between September 30, 2000 and August 31, 2001; an additional 18
                    began operations in the following year, for a total of 84; and an
                    additional 3 HwHs began operations in the first 4 months of the
                    following fiscal year (ending December 31, 2002), for a total of 87. The
                    increase in HwHs for each year is a result of new HwHs being
                    established.


 OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   6
I N T R O D        U C T              I O N


                    We truncated the analysis with fiscal years ending December 31, 2002,
                    because more current data were not available at the time we conducted
                    our analysis. Because HwH fiscal years commence at the beginning of
                    different months, the available data allow us to analyze only a subset of
                    2002 fiscal year data. This subset of 38 HwHs comprises those with
                    fiscal years ending between September and December 2002.
                    Oversight of Exclusion Criteria: To determine the extent of CMS’s
                    oversight of the exclusion criteria, we visited the Chicago and Dallas
                    regional offices, which have jurisdiction over 53 of the 87 HwHs in our
                    scope. We reviewed files on 52 of these facilities and interviewed staff
                    at both regions. We also interviewed staff in the Atlanta and
                    Philadelphia regional offices, which have jurisdiction over 25 additional
                    HwHs.

                    We visited Mutual of Omaha, the fiscal intermediary that services 74
                    HwHs within our scope. We reviewed files on 68 HwHs and interviewed
                    relevant staff. We also interviewed staff at two other fiscal
                    intermediaries. Between our visits to Mutual of Omaha and the
                    Chicago and Dallas regional offices, we reviewed files on 80 of the 87
                    HwHs in our scope.

                    The interviews and the file reviews focused on how CMS ensures that
                    HwHs are meeting the 5 percent readmission threshold and the criteria
                    for exclusion from the acute care hospital PPS. Appendix A provides
                    full details on our methodology.

                    We conducted this inspection in accordance with the Quality Standards
                    for Inspections issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   7
     F I N D I N G S 


       Nineteen of 87 HwHs exceeded the annual              In fiscal year 2000, 14 of 66 HwHs
    5 percent threshold for readmissions at least           operating at that time discharged
          once during their fiscal years ending in          to their hosts and then readmitted
                                                            more than 5 percent of patients. In
        September 2000 through December 2002.
                                                            fiscal year 2001, 10 of 84 HwHs
                       readmitted patients over the 5 percent threshold. In a subset of HwHs
                       with complete fiscal year data for 2002, 6 of 38 readmitted more than 5
                       percent of their patients.∗ Appendix B provides a summary of
                       readmission data by year.

                       During their fiscal years ending in September 2000 through December
                       2002, the readmission rates for those 19 HwHs ranged from just over 5
                       percent to 10.7 percent.

                       Nine HwHs exceeded the 5 percent threshold in multiple fiscal years,
                       including two that exceeded it in all 3 years of our analysis. This shows
                       a continuing pattern of readmission in these HwHs. Among them,
                       however, we found no consistent factors that might provide an
                       explanation. For example, the HwHs came from several different chain
                       organizations.

                       The geographic distribution of the HwHs over 5 percent parallels the
                       national distribution of all HwHs, with 13 of the 19 HwHs located in
                       Louisiana, Michigan, Ohio, Pennsylvania, and Texas.



    CMS lacks a system to detect readmissions                Under the cost-based system in
                  over the 5 percent threshold.              effect prior to October 2002,
                                                             payments to HwHs exceeding the
                       5 percent threshold were to be limited by excluding all readmissions
                       from the calculation of their cost per discharge. At this point in time,
                       however, we cannot determine whether the appropriate adjustments to
                       HwHs’ cost ceilings have been or will be made. Fiscal intermediaries
                       make those adjustments during the cost report settlement process,
                       which occurs 2 to 3 years after the close of a hospital’s fiscal year; that
                       process has not yet been completed.




                       ∗
                           Because HwH fiscal years commence at the beginning of different months, the available
                           data allow us to analyze only a subset of 2002 fiscal year data. This subset of 38 HwHs
                           comprises those with fiscal years ending between September and December 2002.



     OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                   8
F   I N D I N G         S


                      Identifying readmissions is not a priority.
                      CMS has no edits in its claims payment system or under development
                      that would identify HwHs over the 5 percent readmission threshold.
                      Nor has CMS instructed fiscal intermediaries, in either the Medicare
                      Intermediary Manual or the Provider Reimbursement Manual, to
                      identify and deal with HwHs over the 5 percent readmission threshold.

                      In our discussion with CMS regional offices, staff told us that reviewing
                      compliance with the 5 percent threshold is the responsibility of the
                      fiscal intermediaries. However, CMS’s fiscal integrity branch, which
                      sets yearly priorities for reviews by the fiscal intermediaries, has not
                      instructed them to identify HwHs over the 5 percent threshold. Fiscal
                      intermediary staff we interviewed corroborated this lack of instruction.
                      Medicare cost reports lack information needed to identify HwHs over the
                      5 percent threshold.
                      Even had CMS instructed the fiscal intermediaries to identify HwHs
                      over the 5 percent threshold, it would be difficult to do so. First, cost
                      reports do not contain information on the source of admissions or
                      readmission rates, making it impossible for the fiscal intermediaries to
                      calculate that rate.

                      Second, even if the HwH included the readmission rate in its own
                      calculations, the fiscal intermediaries would be able to verify this rate
                      only by examining billing data for both the host and HwH. However,
                      the host and HwH are separate hospitals, each filing its own cost report.
                      Consequently, fiscal intermediaries do not conduct such examinations.
                      Many HwHs and host hospitals have different intermediaries and different
                      fiscal years.
                      Fifty-one HwHs have different fiscal intermediaries than their host
                      hospitals. This means that the HwH’s intermediary would not have
                      access to data about admissions to and discharges from the host. This
                      problem is compounded further when the HwH and host hospital have
                      different fiscal years.


   Many readmissions in the hospitals-within-              On October 1, 2002 CMS began
hospitals over the 5 percent threshold involved            phasing in a DRG-based payment
                               high-cost DRGs.             system for long-term care
                                                           hospitals, including HwHs. HwHs
                      that exceed the 5 percent readmission threshold are supposed to receive
                      only one DRG payment for all their admissions from the host hospital


    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   9
F   I N D I N G 
S


                      regardless of the number of readmissions from the host hospital. This
                      payment limitation applies to the fiscal year in which the HwH exceeds
                      the 5 percent threshold. (HwHs below the 5 percent threshold would
                      receive two payments, one for the initial admission and one for the
                      readmission.) Not having a system in place to identify those HwHs that
                      exceed the 5 percent threshold means that Medicare risks making two
                      payments to HwHs over that threshold (one for the initial admission
                      and a subsequent payment for the readmission).

                      Our analysis is based on data from the period immediately preceding
                      the implementation of the long-term care hospital PPS. During this
                      period, however, HwHs were supposed to face financial penalties in
                      their cost report settlement if they exceeded the 5 percent readmission
                      threshold from the host hospital regardless of the number of
                      readmissions from the host hospital. This payment limitation applies to
                      the fiscal year in which the HwH exceeds the 5 percent threshold. As
                      shown above, we found that CMS lacked a system to identify
                      readmissions. In the absence of such a system, it is useful to examine
                      how HwHs responded to that threshold as a potential predictor of
                      behavior under the new PPS system.
                      Three high cost DRGs accounted for 155 of the 425 readmissions in these
                      facilities–more than 36 percent.
                      For fiscal years ending September 2000 through December 2002, three
                      DRGs dominated in HwHs over the 5 percent threshold. All three of
                      these DRGs have relative weights greater than 1.0, the base weight that
                      applies to the “average” DRG.10 Medicare reimbursement for July 1,
                      2003 through June 30, 2004 for that average DRG is $35,726.18,
                      referred to as the standard Federal rate. Appendix B shows the
                      distribution of and costs associated with the most common DRGs for
                      readmissions.

                      The most common DRG for readmissions among HwHs over the
                      5 percent threshold was DRG 271 (skin ulcers), accounting for 53
                      readmissions (12.5 percent of the total readmissions in these HwHs); its
                      relative weight of 1.2354 yields a per discharge payment of $44,136.

                      The second most common was DRG 475 (respiratory system diagnosis
                      with ventilator support), which accounted for 52 (12.2 percent)
                      readmissions in HwHs over the 5 percent threshold. DRG 475 has a
                      relative weight of 2.3043. Multiplied by the standard Federal rate, this
                      DRG yields a payment of $82,324, more than $46,600 over the payment
                      for the average DRG.

    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   10
F   I N D I N G         S


                      DRG 87 (pulmonary edema and respiratory failure), the third most
                      frequent DRG, with 50 (11.7 percent) readmissions has a relative weight
                      of 2.4202, yielding a per discharge payment of $86,465.

                      We focused this analysis on these 3 DRGs because the numbers of
                      readmissions in other DRGs fall sharply down to 17 readmissions for
                      the fourth most frequent DRG.

                      Appendix B contains data on the 9 DRGs in which 10 or more patients
                      were readmitted to HwHs over the 5 percent threshold during the time
                      covered by our analysis. These nine DRGs account for 55 percent of all
                      readmissions to these facilities.
                      The high cost of these DRGs is exacerbated when a patient is readmitted.
                      Without an effective oversight system in place that limits payments for
                      readmissions over the 5 percent threshold, Medicare would pay three
                      times for a patient whom the HwH discharges to the host and then
                      readmits to the HwH–two DRG payments to the HwH (for the first
                      admission and the subsequent readmission) plus a third payment to the
                      host hospital for its treatment in the interim. In other words, for a
                      patient who was readmitted with DRG 271, Medicare would pay the
                      HwH $88,272; for patients with DRG 475, Medicare would pay
                      $164,648. The host hospital would receive an additional payment for its
                      services to that patient.

                      One possible explanation for the high readmission rates among these
                      high cost DRGs is that the clinical condition of these patients
                      necessitates discharge to an acute care hospital at a greater rate than
                      for patients with other diagnoses.

                      Another plausible explanation, however, is that the high revenue
                      potential of these DRGs makes patients with those conditions
                      potentially vulnerable to readmission for financial rather than clinical
                      reasons.




    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   11
  F   I N D I N G         S 




  CMS provides limited oversight of hospital-
within-hospital compliance with the exclusion
                                      criteria.
                        CMS requires HwHs to demonstrate annually that they meet the 25-day
                        average-length-of-stay criterion.
                        Two months prior to the end of an HwH’s fiscal year, its fiscal
                        intermediary requires the HwH to submit data showing their average
                        length of stay. The fiscal intermediary confirms for CMS that the HwH
                        maintains an average length of stay greater than 25 days, as is required
                        of all long-term care hospitals.11
                        We corroborated that all HwHs met this criterion for their most recently
                        filed cost reporting period through an analysis of cost report data from
                        CMS’s Healthcare Cost Report and Information System. Prior to the
                        long-term care hospital PPS, CMS and the fiscal intermediaries
                        included all patients in calculating the average length of stay. The new
                        long-term care hospital PPS makes that determination for Medicare
                        patients only. As a result, the fiscal intermediaries can now assess
                        compliance using Medicare claims payment data, rather than self-
                        reported cost report information.

                        However, CMS’s State Operations Manual does not specify what data
                        should be submitted. In our file review at Mutual of Omaha, the fiscal
                        intermediary servicing 74 of the 87 HwHs within our scope, we found
                        that the level of detail submitted by HwHs varied widely. Some HwHs
                        submitted only the total number of discharges and patient days,
                        together with a simple calculation showing they had an average length
                        of stay greater than 25 days. Others provided a complete listing of their
                        patient census, including all admissions and discharges. That complete
                        census listing provides an opportunity for the fiscal intermediary to
                        verify the length-of-stay calculation.

                        From our interviews at Mutual of Omaha, we found that the fiscal
                        intermediary’s auditors lacked access for more than 2 years to Medicare
                        data that would aid in verifying average length of stay. This gap
                        resulted from conflicts between shared claims processing systems.
                        When auditors gained access to the data, they performed an analysis on
                        a small number of HwHs. They compared average length of stay based
                        on self-reported data and Medicare cost report data. The test revealed
                        that the sample met the criterion, and Mutual of Omaha did not expand
                        its review further.


      OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   12
F   I N D I N G 
S


                      Currently, CMS has no ongoing mechanism to determine whether HwHs are
                      complying with the organizational and financial independence criteria.
                      CMS determines an HwH’s compliance with these criteria only once,
                      when the agency first classifies it as a long-term care hospital. At this
                      initial classification, HwHs submit documentation demonstrating
                      independence to the CMS regional office or State agency that conducts
                      Medicare surveys.

                      However, CMS does not specify the time in this process at which an
                      HwH must submit documentation. Many chain organizations submit
                      documentation when their HwHs first enter Medicare; in other cases,
                      the CMS regional office requests it when the HwHs convert to long-term
                      care status.

                      This initial submission is the only time CMS requires HwHs to submit
                      such documentation. CMS does not require them to demonstrate
                      ongoing compliance with the independence criteria.
                      Further, data supporting compliance with the organizational and financial
                      independence criteria are self-reported and not independently verified.
                      CMS does not independently verify the initial documentation HwHs
                      submit through site visits, audits, or requests for supporting evidence.
                      Additionally, CMS has never developed guidelines on what evidence is
                      needed to demonstrate compliance. The State Operations Manual does
                      not offer instructions on what would demonstrate HwH independence
                      from the host. The manual states that a CMS regional office makes the
                      determination “on a case-by-case basis…using whatever procedure it
                      deems appropriate.”12 As a result, there is no consistency in the
                      amount, type, and detail of information available to CMS and State
                      agencies as they make their decisions.

                      To demonstrate organizational independence, some HwHs submit
                      organizational charts, management information, information about
                      their corporate parent, and copies of their leases, bylaws, and purchased
                      services agreements. Some HwHs also submit information concerning
                      their hosts, including the host’s board of governors and senior
                      management.

                      Others, however, provide significantly less documentation–in some
                      cases omitting any information about the host hospital, the HwH’s own
                      governing board, or corporate parent. Some HwHs submit a statement
                      that their medical staff is separate from the host’s staff, but do not
                      include any additional documentation.


    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   13
F   I N D I N G         S


                      Another avenue for potential verification of organizational
                      independence is an accreditation survey, which an HwH can choose
                      instead of a State survey. The Joint Commission on Accreditation of
                      Healthcare Organizations may review organizational arrangements
                      during the accreditation process, but that is not required, nor is
                      information necessarily shared with CMS.

                      HwHs also vary in the amount of documentation they submit to
                      demonstrate their financial independence. HwHs must show that they
                      meet 1 of 3 criteria–that they perform basic hospital functions
                      independently from the host; that at least 75 percent of their admissions
                      come from a source other than the host; or that they limit their
                      purchase of services from the host to no more than 15 percent of HwH
                      expenses. Nearly all choose to meet the 15 percent criterion. To
                      demonstrate compliance with this criterion, some HwHs submit detailed
                      financial summaries, including a complete breakdown of services
                      purchased from their hosts, while others submit only the total dollar
                      value of purchased services. Further, some HwHs send CMS a letter
                      stating they plan to meet the criterion, with no supporting data.

                      While some CMS regional office staff told us that HwHs send detailed
                      information on their purchases from the host to their fiscal
                      intermediaries, none of the intermediaries we spoke with receive or
                      review such data.




    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   14
     R E C O M M E N D A T I O N S                                                                  


                       The co-location of an HwH and its host hospital raises concerns about
                       potentially inappropriate financial incentives. These incentives make
                       strong CMS oversight of the relationship between an HwH and its host
                       hospital critical. Yet, such oversight is lacking. In fact, CMS lacks a
                       system to detect readmissions over the 5 percent threshold. As payment
                       transitions to a prospective DRG-based system, the financial threat
                       posed by failing to detect these readmissions could be significant since
                       CMS would continue to make two DRG payments, rather than one
                       payment, to HwHs over the 5 percent readmission threshold. The lack
                       of a mechanism to determine whether HwHs are complying with the
                       organizational and financial independence criteria means that CMS has
                       no effective way of determining whether HwHs and their hosts are, in
                       fact, separate facilities. Compounding this vulnerability is the ongoing
                       rapid growth of HwHs.

                       These recommendations do not require new HwH-specific regulations.
                       Rather, these recommendations to improve CMS’s oversight of HwHs
                       could be issued through instructions in program memoranda.


        CMS should develop a system to monitor                                                           We suggest three key directions
    hospital-within-hospital compliance with the 5                                                       that CMS could take toward this
                   percent readmission threshold.                                                        end:


                       CMS could require HwHs to submit annual discharge, admissions, and
                       readmissions data to their fiscal intermediaries.
                       CMS requires fiscal intermediaries to obtain average-length-of-stay
                       data 2 months prior to the end of the HwH’s fiscal year end. CMS could
                       also require the fiscal intermediaries to solicit readmission data at the
                       same time it requests average-length-of-stay data. These readmission
                       data could specify all patients admitted to the host from the HwH and
                       then readmitted without an intervening stay.
                       CMS could use the data submitted to the fiscal intermediaries to monitor
                       HwH readmission rates.
                       Data submission would enable the fiscal intermediaries and, by
                       extension, CMS to monitor readmission rates annually rather than 3
                       years after the fact during the cost report settlement process. CMS
                       could then have the intermediaries analyze these data to determine the
                       number of readmissions from the host hospital to the HwH and whether
                       this number exceeds the 5 percent threshold. Those HwHs found to be


     OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                                   15
R 	E C O       M M E N D A T                            I O N                S


                    over the 5 percent threshold could then be subject to a thorough audit to
                    determine whether Medicare must recoup any overpayment.

                    CMS could target for medical review those DRGs with large relative
                    weights that tend to be associated with the most commonly readmitted
                    patients. These include DRGs 271, 475, and 87. The purpose of this
                    review would be to determine whether those DRGs are particularly
                    vulnerable to abuse through upcoding or unnecessary discharge and
                    readmission.

                    CMS also could analyze whether, in fact, 5 percent is the appropriate
                    threshold at which payment adjustments should take place.

                    If CMS finds that abuse of the payment system is prevalent, it may
                    wish to take more stringent measures, such as establishing some type of
                    concurrent edits. Such edits could avoid overpayment, prospectively.
                    CMS could develop a system to facilitate data sharing between fiscal
                    intermediaries.
                    CMS could work with fiscal intermediaries to develop a system to
                    coordinate data sharing between intermediaries. This system could
                    eliminate barriers that make it difficult to acquire host hospital claims
                    data. Access to these data would be particularly useful since it would
                    give fiscal intermediaries the raw data they need to verify their HwHs’
                    readmission rate calculations.


CMS should require hospitals-within-hospitals
                                                                                                  Options for ensuring HwH
 to demonstrate ongoing compliance with the
                                                                                                  organizational and financial
    organizational and financial independence
                                                                                                  independence include:
                                       criteria.

                    CMS could specify what supporting documentation HwHs must submit to
                    demonstrate ongoing organizational independence.
                    When HwHs request classification as long-term care hospitals, they
                    could submit a uniform package of documentation to the State agency or
                    CMS regional office. HwHs already classified as long-term care
                    hospitals could send this information before the start of their next cost-
                    reporting period. The information could include:

                            • 	 detailed descriptions of the HwH’s and host’s governing bodies

                            • 	 detailed descriptions of any third parties that control both
                                hospitals, and an explanation of how the third party controls
                                them

  OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                                  16
R 	E C O      M M E N D A T                            I O N                S


                           • 	 information on the HwH’s corporate parent, if applicable

                           • 	 names of HwH and host CEOs and their employers

                           • 	 detailed organizational charts, including chief medical officers
                               from both facilities and where the medical officers are
                               credentialed and privileged

                           • 	 names of medical staffs and copies of medical staff bylaws

                   These initial submissions would serve as a baseline. CMS could then
                   require HwHs to report any changes in their organizational structure to
                   the regional office. These changes might include a new chief executive
                   officer or chief medical officer, a change in corporate ownership, or a
                   change in bylaws. This information could be provided at the same level
                   of detail as the initial submission.
                   CMS could require HwHs to submit annual financial independence data to
                   their fiscal intermediaries.
                   Two months prior to the end of their fiscal years, at the same time they
                   are required to submit average-length-of-stay data, HwHs could submit
                   data demonstrating financial independence. HwHs could specify which
                   of the three criteria they meet, as well as provide summary data and
                   raw calculations in support. We recommend that CMS define the
                   specific data to be submitted to allow verification by the fiscal
                   intermediary. HwHs could submit these data, readmissions data, and
                   average-length-of-stay data to their fiscal intermediaries in one
                   package. Annual reporting would allow CMS to monitor the purchased
                   services agreements between HwHs and their hosts.
                   CMS could conduct a focused review of a sample of HwHs to assess their
                   compliance with the exclusion criteria.
                   Because there are no Medicare conditions of participation specific to
                   long-term care hospitals, certification surveys and accreditation surveys
                   do not address CMS’s long-term care hospital and HwH-specific criteria.
                   An annual focused-review project of a sample of HwHs would determine
                   the degree to which HwHs are complying with CMS criteria.




 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   17
   A G E N C Y                     C O M M E N T S                                                 




                      We received comments on our draft report from the Centers for
                      Medicare and Medicaid Services (CMS). CMS generally supports our
                      findings and the general thrust of our recommendations.

                      With regard to the first recommendation, CMS indicates that it is
                      presently formulating a program to enforce the 5 percent readmission
                      threshold. We are encouraged that the agency is moving forward to
                      address this area. We hope that our suggestions will be useful to the
                      agency in developing an effective monitoring system.

                      With regard to the second recommendation, CMS indicates that
                      determining ongoing compliance with the organizational and financial
                      independence criteria is a problem, but cautions that annual review of
                      each facility’s articles of incorporation is not administratively feasible.
                      The agency does, however, indicate it plans to strengthen oversight of
                      these independence criteria by establishing a method that will allow an
                      annual review. We support efforts to strengthen that oversight; our
                      recommendation offered some options for doing so, but we welcome
                      other ways of achieving that same goal. Our real concern is that the
                      oversight system achieve some way of ensuring that an HwH is indeed a
                      separate facility from its host in order to dispel the possibility of
                      inappropriate financial transactions.

                      We also adopted technical comments that CMS suggested.

                      The full text of the CMS comments appears in Appendix C.




    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S       18
    A P P E N D I X ~ A :                                                M E T H O D O L O G Y



                  IDENTIFICATION OF HOSPITALS-WITHIN-HOSPITALS
                  We first developed a list of HwHs operating as of March 2003.13 We
                  began by obtaining a listing of all long-term care hospitals and acute care
                  hospitals from CMS’s Online Survey Certification and Reporting (OSCAR)
                  system. With this list we matched addresses of long-term care hospitals
                  and acute care hospitals. If we could not make an exact match, we used
                  the Internet to determine whether we could identify which long-term care
                  hospitals were HwHs. We visited long-term care hospital web sites, host
                  hospital sites, industry-related sites, news sites, HwH chain organization
                  sites, and mapping sites to determine what long-term care hospitals were
                  HwHs. When we could not determine whether a long-term care hospital
                  was an HwH, we contacted the facility directly.


                  5 PERCENT READMISSION THRESHOLD
                  To determine HwH readmission rates, we obtained the National Claims
                  History 100 Percent Inpatient File for HwHs, and their corresponding
                  host hospitals, through CMS’s Data Extract System. CMS instituted the
                  5 percent readmission threshold on October 1, 1999. HwHs were to limit
                  their readmissions from their host hospitals in the fiscal year beginning
                  on or after that date. Therefore, we focused on fiscal years commencing
                  after that date. This came up with a total of 87 HwHs—66 with a fiscal
                  year ending between September 30, 2000 and August 31, 2001; an
                  additional 18 began operations in the following year, for a total of 84; and
                  an additional 3 HwHs began operations in the first 4 months of the
                  following year (ending December 31, 2002).

                  We used SAS® to determine the number of instances in which Medicare
                  patients were discharged from the HwH to its host hospital and then
                  readmitted directly to the HwH. We also used SAS® to determine the
                  total number of Medicare discharges during each HwH’s fiscal year. We
                  then divided the number of Medicare patients readmitted to an HwH
                  from its host hospital by the HwH’s total Medicare discharges to
                  determine the HwH’s readmission rate.

                  When we identified an HwH over the 5 percent readmission threshold, we
                  further identified all Medicare patients readmitted to the HwH from its
                  host hospital. Next, we used SAS® to obtain a summary of patients’
                  claims history in the HwH and host hospital, which provided the DRG for
                  each patient.



OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S    19
A P P E N D I X ~ A :                                   M E T H O                                D O L O G   Y   




                   CMS CONTROLS TO ENSURE COMPLIANCE WITH THE
                   EXCLUSION CRITERIA
                   Organizational and Financial Independence
                   CMS Regional Offices. We visited two CMS regional offices. The Chicago
                   office is responsible for 28 HwHs in our scope, and the Dallas office is
                   responsible for 25 HwHs in our scope. At these regional offices, we
                   interviewed staff who deal with these HwHs, and we reviewed the files on
                   52 of these 53 HwHs. The Chicago Regional office was unable to locate
                   files on one HwH. Both the interviews and the file reviews focused on
                   how CMS ensures that HwHs are meeting the 5 percent readmission
                   threshold and the criteria for exclusion from the acute care hospital PPS.

                   We also performed telephone interviews with 2 other CMS regional
                   offices: Atlanta (14 HwHs in our scope) and Philadelphia (11 HwHs).
                   Our interviews focused on how CMS ensures whether HwHs are meeting
                   the 5 percent readmission threshold and the criteria for exclusion from
                   the acute care hospital PPS.
                   Fiscal Intermediaries. We visited Mutual of Omaha, the fiscal
                   intermediary that services 74 HwHs within our scope. During this site
                   visit, we interviewed staff who regularly deal with HwHs, focusing on the
                   role the fiscal intermediary plays in the oversight of HwHs. Additionally,
                   we reviewed files on 68 HwHs, focusing on whether the files contained
                   documentation related to the 5 percent readmission threshold or
                   compliance with the criteria for exclusion from the acute care hospital
                   PPS. While Mutual services 74 HwHs in our scope, we reviewed files on
                   only 68 HwHs. At the time of our site visit to Mutual, CMS’s HCFA
                   Customer Information System (HCIS) did not have fiscal intermediary
                   information for three HwHs. Only after our site visit did further
                   investigation confirm that Mutual services these three HwHs.
                   Additionally, Mutual was unable to furnish files on three HwHs.

                   We also interviewed two other fiscal intermediaries, Blue Cross Blue
                   Shield of Oklahoma and AdminiStar Federal, Inc. of Indianapolis, by
                   telephone and electronic mail. These two fiscal intermediaries service
                   five HwHs, thus representing 5 percent of the HwHs within our scope.
                   These interviews focused on their role in ensuring compliance with the 5
                   percent readmission threshold and the criteria for exclusion from the
                   acute care hospital PPS.




 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                       20
A P P E N D I X ~ A :                                   M E T H O                                D O L O G   Y


                   Average Length of Stay
                   Healthcare Cost Report Information System. To verify the average length
                   of stay for the HwHs in our scope, we analyzed the most recently filed
                   HwH cost report data from CMS’s Healthcare Cost Report Information
                   System. From this data set, we were able to verify the average length of
                   stay for HwHs within our scope. Specifically, we divided the total number
                   of Medicare-covered days by the total number of Medicare discharges.


                   OTHER DATA SOURCES
                   Descriptive Statistics. We obtained descriptive statistics for HwHs from
                   analysis of data contained in CMS’s HCFA Customer Information System.
                   HwH Industry Groups. We visited the corporate offices of two for-profit
                   HwH chains and one not-for-profit HwH chain. We also visited an HwH
                   of one of the for-profit chains.

                   Additionally, we met with the two long-term care hospital associations,
                   the Acute Long Term Hospital Association and the National Association
                   of Long Term Hospitals.




 OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                   21
      A P P E N D I X                                  ~             B :                 D A T A                     T A B L E S   





                                                  Table B-1
                 Readmissions to Hospitals-within-Hospitals (HwHs) from their Host Hospitals
                     HwH Fiscal Years Ending September 2000 through December 2002

                                                   Total
              Number                                                         Readmission
Fiscal Year           Readmissions               Medicare
              of HwHs                                                         Percentage
                                                 Discharges
      2000           66                409                 14,505                                2.8%
      2001           84                516                 19,712                                2.6%
     2002*           38                318                 10,037                                3.2%




                                                 Table B-2
                Hospitals-within-Hospitals (HwHs) Exceeding 5 percent Readmission Threshold
                      HwH Fiscal Years Ending September 2000 through December 2002

                                                   Total
              Number                                                         Readmission
Fiscal Year           Readmissions               Medicare                                                  Readmission Range
              of HwHs                                                         Percentage
                                                 Discharges
                                                                                                             low       high
      2000          14                 178                   2,497                               7.1%          5.1%     10.7%
      2001          10                 132                   1,998                               6.6%          5.5%      8.5%
     2002*            6                115                   1,538                               7.5%          5.2%      9.1%
      Total         n/a                425                   6,033                                 n/a          n/a        n/a



              Fiscal Year (FY)2000: cost report periods ending September 2000 through August 2001
              FY2001: cost report periods ending September 2001 through August 2002
              *FY2002: cost report periods ending September 2002 through December 2002. Only 38
              HwHs had fiscal years ending in that time frame.

              Source: OIG Analysis of Medicare National Claims History 100 Percent Inpatient File




      OEI-01-02-00630        L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                                22
           A   P P E N D         I X ~ B :                             D A T A                            T A B L   E S   





                                                                          Table B-3
                   Nine Most Common Diagnosis-related Groups (DRGs) for Patients Readmitted
                            to Hospitals-within-Hospitals (HwHs) from Host Hospital
                             For HwHs Exceeding 5 percent Readmission Threshold
                        HwH Fiscal Years Ending September 2000 through December 2002
                                      Long-Term
                                        Care
                                       Hospital
                                       Relative Discharges Discharges Discharges Total   Cumulative Payment per
DRG DRG Description                    Weight    FY 2000    FY 2001    FY 2002 Discharges Percent    Discharge
271 SKIN ULCERS                        1.2354       29         12         12       53      12.5%    $    44,136
    RESPIRATORY SYSTEM
    DIAGNOSIS WITH
475 VENTILATOR SUPPORT               2.3043          20          28           4          52                                   24.7%   $        82,324
    PULMONARY EDEMA &
087 RESPIRATORY FAILURE              2.4202          20           8          22          50                                   36.5%   $        86,465
416 SEPTICEMIA AGE >17               1.1222           7           7           3          17                                   40.5%   $        40,092
316 RENAL FAILURE                    1.1553          8           6            1          15                                   44.0%   $        41,274
    CHRONIC OBSTRUCTIVE
088 PULMONARY DISEASE                0.9390          5            3           6          14                                   47.3%   $        33,547
    HEART FAILURE &
127 SHOCK                            0.8658          6            4           2          12                                   50.1%   $        30,932
    SPECIFIC
    CEREBROVASCULAR
    DISORDERS EXCEPT
    TRANSIENT ISCHEMIC
014 ATTACK                           1.0143          1            1           9          11                                   52.7%   $        36,237
    PERIPHERAL VASCULAR
    DISORDERS WITH
    COMPLICATION OR
130 COMORBIDITY                      0.9391          4                        6          10                                   55.1%   $        33,550
    Fiscal Year (FY) 2000: cost report periods ending September 30, 2000 through August 31, 2001
    FY2001: cost report periods ending September 30, 2001 through August 31, 2002
    FY2002: cost report periods ending September 30, 2002 through December 31, 2002

      Source: OIG Analysis of Medicare National Claims History 100 Percent Inpatient File




               OEI-01-02-00630    L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S                             23
   A P P E N D I X                              ~             C

                      Agency Comments




    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   24
A   P   P E N D       I X ~            C             





    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   25
   A C K N O W L E D G M E N T S                                                                   




                      This report was prepared under the direction of Mark R. Yessian, Ph.D.,
                      Regional Inspector General for Evaluation and Inspections in the Boston
                      Regional Office, and Joyce M. Greenleaf, MBA, Assistant Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Russell W. Hereford, Ph.D., Team Leader

                      Christopher T. Gould, M.S., Project Leader

                      Ivan E. Troy, MPA, Program Analyst

                      Bambi Straw, Program Specialist, Baltimore

                      Technical Assistance:

                      Linda M. Moscoe, Program Analyst, Baltimore




    OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S       26
   E N D             N O T E S                            





                        1
                            42 C.F.R. § 412.23(e)(2)(i). The criterion requires a long-term care
                             hospital to have an average length of stay greater than 25.0 days.
                             Prior to the October 2002 implementation of the long-term care
                             hospital prospective payment system (PPS), the Centers for Medicare
                             & Medicaid Services (CMS) calculated the average length of stay of all
                             patients. After implementation of the long-term care hospital PPS,
                             CMS calculates the average length of stay of all Medicare patients.

                        2
                            42 C.F.R § 412.22(d)

                        3
                            42 C.F.R § 413.40(a)(3)

                         For example, a hospital-within-hospital (HwH) with 50 discharges and
                           allowable costs of $2 million, or $40,000 per discharge, would be paid
                           the full $40,000 per discharge.

                            However, if the HwH exceeded 5 percent readmissions from its host, the
                             allowable cost per discharge would be calculated as follows: Assume
                             that 5 of those 50 discharges (10%) were readmissions from the host.
                             Then the total allowable costs would be only $1.8 million. In
                             calculating the cost limits, the 5 readmissions would only be counted
                             once, so the per-discharge limit would be based on 45 discharges.

                        4    42. C.F.R. § 412.532(c)

                        5
                            42 C.F.R. § 412.22(e)(1-4)

                        6
                            42 C.F.R § 412.22(g)

                        7
                            42 C.F.R. § 412.22(e)(5)

                        8
                            42 C.F.R. § 412.22(f)

                        9     The requirements are found at 42 C.F.R.§ 413.40(a)(3)(B)

                        10
                             Under the long-term care PPS, CMS calculates a standard base rate
                              that reflects average costs of caring for all patients in long-term care
                              hospitals. For July 1, 2003 through June 30, 2004 that base rate is




    OEI-01-02-00630     L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S      27
                        $35,726.18. A relative weight is calculated for each diagnosis-related
                        group (DRG), depending on the complexity and resource utilization of
                        patients in that DRG. To determine payment, the relative weight
                        assigned to the DRG is multiplied by the standard base rate. Those
                        DRGs that are less complex and that utilize fewer resources have a
                        relative weight less than one; those DRGs that are complex and
                        require significant resources have a relative weight greater than one.

                  11   The fiscal intermediary requires this submission from all long-term
                       care hospitals, both HwHs and free-standing hospitals. CMS is able to
                       identify all long-term care hospitals, even though it cannot identify
                       which are free standing and which are HwHs. Thus, its inability to
                       identify which long-term care hospitals are HwHs does not prevent it
                       from obtaining these data.

                  12   Medicare State Operations Manual, § 3112.1 (March 1998)

                  13
                       October 1, 2002 regulations require that all co-located facilities, such as
                        HwHs, notify their CMS regional office of their co-located status.
                        Prior to issuing these regulations, CMS was unable to determine
                        which long-term care hospitals were HwHs, unless an HwH
                        volunteered that information. Therefore, since CMS did not have a list
                        of long-term care HwHs, our study began by developing a list of long-
                        term care hospitals that are HwHs.




OEI-01-02-00630   L O N G - T E R M C A R E H O S P I TA L S - W I T H I N - H O S P I TA L S   28
